TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Fiscal Year 2007 Statutory Audit of
                       Compliance With Legal Guidelines
                      Restricting the Use of Records of Tax
                               Enforcement Results



                                          March 20, 2007

                              Reference Number: 2007-40-055




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 March 20, 2007


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2007 Statutory Audit of Compliance
                               With Legal Guidelines Restricting the Use of Records of Tax
                               Enforcement Results (Audit # 200740001)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with established procedures to implement the legal guidelines set forth in the IRS
 Restructuring and Reform Act of 1998 (RRA 98) Section 1204.1 The Treasury Inspector General
 for Tax Administration is required under Internal Revenue Code Section 7803(d)(1) (2000) to
 annually evaluate the IRS’ compliance with the provisions of RRA 98 Section 1204.

 Impact on the Taxpayer
 The RRA 98 requires the IRS to ensure managers do not evaluate employees using any record of
 tax enforcement results (ROTER) or base employee successes on meeting arbitrary production
 goals and quotas. Based on the results of our sample, we believe the IRS’ efforts to enforce the
 employee evaluation requirements under Section 1204 are generally effective and are helping to
 protect the rights of taxpayers.

 Synopsis
 RRA 98 Section 1204(a) prohibits the IRS from using any ROTERs to evaluate employees or to
 impose or suggest production quotas or goals. Section 1204 (b) requires employees to be
 evaluated using the fair and equitable treatment of taxpayers as a performance standard.


 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                      Fiscal Year 2007 Statutory Audit of
                                 Compliance With Legal Guidelines Restricting
                                the Use of Records of Tax Enforcement Results


Section 1204(c) requires each appropriate supervisor to certify quarterly whether tax
enforcement results were used in a prohibited manner. To evaluate the IRS’ compliance with
RRA 98 Section 1204, we selected a judgmental sample of 5 first-line managers and
3 employees for each of these managers in 12 cities, for a total of 60 managers and
180 employees.2 We evaluated Fiscal Year 2006 performance evaluation documentation
(including midyear and annual performance reviews
and award documentation) for each employee to
determine whether ROTERs were used when                      First-line managers followed
evaluating the employees’ performance.                           RRA 98 Section 1204
                                                                       provisions for evaluating
The first-line managers we sampled complied with                      employees.
RRA 98 Section 1204. They had not used ROTERs or
production quotas or goals when evaluating employees, had considered the fair and equitable
treatment of taxpayers as a performance requirement, and had appropriately certified that they
had not used tax enforcement results in a prohibited manner. The first-line managers sampled
worked for the Small Business/Self-Employed Division; the Wage and Investment Division; the
Large and Mid-Size Business Division; the Tax Exempt and Government Entities Division; the
Office of the Chief, Appeals; and the Office of the National Taxpayer Advocate. Based on the
results of our review, the IRS’ efforts to ensure managers are not using ROTERs or production
goals or quotas to evaluate employees are generally effective.

Response
IRS management reviewed the draft report and provided their concurrence with its contents via
email. Because there were no recommendations requiring a formal response, the IRS agreed that
the report will be issued with no formal written response.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney,
Assistant Inspector General for Audit (Wage and Investment Income Programs), at
(202) 622-5916.




2
    These were employees in jobs for which RRA 98 Section 1204 would be applicable.
                                                                                                   2
                                          Fiscal Year 2007 Statutory Audit of
                                     Compliance With Legal Guidelines Restricting
                                    the Use of Records of Tax Enforcement Results




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          First-Line Managers Complied With the Law Restricting the Use of
          Enforcement Statistics ..................................................................................Page 4
          First-Line Managers Appropriately Completed Their
          Self-Certifications .........................................................................................Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Prior Audit Reports ..............................................................Page 11
               Fiscal Year 2007 Statutory Audit of
          Compliance With Legal Guidelines Restricting
         the Use of Records of Tax Enforcement Results




                 Abbreviations

IRS        Internal Revenue Service
LMSB       Large and Mid-Size Business
PARIS      Performance and Results Information System

ROTER      Record of Tax Enforcement Results
RRA 98     Restructuring and Reform Act of 1998
SB/SE      Small Business/Self-Employed
TE/GE      Tax Exempt and Government Entities
TIGTA      Treasury Inspector General for Tax Administration
W&I        Wage and Investment
                                   Fiscal Year 2007 Statutory Audit of
                              Compliance With Legal Guidelines Restricting
                             the Use of Records of Tax Enforcement Results




                                          Background

On July 22, 1998, the President signed the Internal Revenue Service (IRS) Restructuring and
Reform Act of 1998 (RRA 98) into law.1 RRA 98 Section 1204 restricts the use of enforcement
statistics. Specifically, RRA 98 Section 1204(a) prohibits the IRS from using any record of tax
enforcement results (ROTER) to evaluate employees or to impose or suggest production quotas
or goals.
The IRS defines ROTERs as data, statistics, compilations of information, or other numerical or
quantitative recording of the tax enforcement results reached
in one or more cases. A ROTER does not include                      RRA 98 Section 1204
evaluating an individual case to determine if an employee       prohibits the IRS from using
exercised appropriate judgment in pursuing enforcement of        tax enforcement results or
the tax laws. Examples of ROTERs include the amount of          production   goals or quotas
dollars collected or assessed, the number of fraud referrals       to evaluate employees.
made, and the number of seizures conducted.
RRA 98 Section 1204 (b) requires employees to be evaluated using the fair and equitable
treatment of taxpayers as a performance standard. This provision of the law was enacted to
provide assurance that employee performance is focused on providing quality service to
taxpayers instead of achieving enforcement results. The IRS requires employees to administer
the tax laws fairly and equitably; protect all taxpayers’ rights; and treat each taxpayer ethically
with honesty, integrity, and respect.
RRA 98 Section 1204(c) requires each appropriate supervisor to perform a self-certification
quarterly. In the self-certification, the appropriate supervisor attests to whether ROTERs or
production quotas or goals were used in a prohibited manner. The IRS defines an appropriate
supervisor as the highest ranking executive in a distinct organizational unit that supervises
directly or indirectly one or more Section 1204 enforcement employees.2 Beginning with
first-line managers of Section 1204 employees, IRS procedures require each level of
management to self-certify they have not used ROTERs in a manner prohibited by RRA 98
Section 1204(a). The appropriate supervisor is then to prepare a consolidated office certification
covering the entire organizational unit.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement employee (Section 1204 employee) is an employee or any level manager of an employee who
exercises judgment in recommending or determining whether or how the IRS should pursue enforcement of the tax
laws or who provides direction/guidance for Section 1204 program activities.
                                                                                                       Page 1
                                  Fiscal Year 2007 Statutory Audit of
                             Compliance With Legal Guidelines Restricting
                            the Use of Records of Tax Enforcement Results



The IRS business units and functions, including the Small Business/Self-Employed (SB/SE)
Division; the Wage and Investment (W&I) Division; the Large and Mid-Size Business (LMSB)
Division; the Tax Exempt and Government Entities (TE/GE) Division; the Office of the Chief,
Appeals (Appeals function); and the Office of the National Taxpayer Advocate (Taxpayer
Advocate office) are responsible for Section 1204 program implementation within their
respective areas. Section 1204 Program Managers and Coordinators in each division and
function are available to provide guidance to managers regarding Section 1204 issues, including
the certification process.
Figure 1 depicts the ratio of Section 1204 and Non-Section 1204 managers in the subject
business units as of October 31, 2006. The Section 1204 managers either supervised a
Section 1204 employee or provided guidance or direction for Section 1204 activities.
         Figure 1: Number of Section 1204 and Non-Section 1204 Managers
                     by Business Unit (as of October 31, 2006)


                  3,000
                                                                                  2,366
                  2,500
                                                                                                       1,934
                  2,000
    Number of
    Managers      1,500
                                                                                                 830
                  1,000                                621

                    500       149          200                     211                    218
                                    53           7           49              3

                    -
                           Appeals       Taxpayer     LMSB         TE/GE          SB/SE           W&I
                           Function      Advocate    Division     Division       Division       Division

     Section 1204                                        Business Unit
     Non-Section 1204
Source: The Treasury Integrated Management Information System.

Internal Revenue Code Section 7803(d)(1) (2000) requires the Treasury Inspector General for
Tax Administration (TIGTA) to determine annually whether the IRS is in compliance with
restrictions on the use of enforcement statistics under RRA 98 Section 1204. We have
previously performed eight annual reviews to do this. The audit reports are listed in
Appendix IV.


                                                                                                               Page 2
                               Fiscal Year 2007 Statutory Audit of
                          Compliance With Legal Guidelines Restricting
                         the Use of Records of Tax Enforcement Results



This review was performed at the IRS National Headquarters in Washington, D.C., in the
offices of the Chief Financial Officer and involved the SB/SE, LMSB, and TE/GE Divisions,
the Appeals function, the Taxpayer Advocate office, and the W&I Division headquartered in
Atlanta, Georgia, during the period August 2006 through February 2007. Onsite reviews
were performed at the IRS field offices in St. Paul, Minnesota; Milwaukee, Wisconsin;
Chicago, Illinois; Richmond, Virginia; Jacksonville, Florida; Houston, Texas; Dallas, Texas;
Oklahoma City, Oklahoma; Nashville, Tennessee; Seattle, Washington; Portland, Oregon; and
El Monte, California. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                        Page 3
                                     Fiscal Year 2007 Statutory Audit of
                                Compliance With Legal Guidelines Restricting
                               the Use of Records of Tax Enforcement Results




                                       Results of Review

First-Line Managers Complied With the Law Restricting the Use of
Enforcement Statistics
To evaluate the IRS’ compliance with Sections 1204(a) and 1204(b), which prohibit the use of
enforcement statistics to evaluate employee performance and require that employees be
evaluated on the fair and equitable treatment of taxpayers, we selected a judgmental sample of
5 first-line managers and 3 employees for each of these managers in 12 cities, for a total of
60 managers and 180 employees.3 We evaluated Fiscal Year 2006 performance evaluation
documentation (including midyear and annual performance reviews and award documentation)
for each employee to determine whether ROTERs were used when evaluating the employees’
performance.
The 60 first-line managers in our sample followed the provisions of RRA 98 Sections 1204(a)
and 1204(b) when evaluating employees. The managers we sampled worked in the SB/SE
Division, the W&I Division, the LMSB Division, the TE/GE Division, the Appeals function, and
the Taxpayer Advocate office. They had not used ROTERs or production quotas or goals when
documenting the performance of the 180 Section 1204 employees we sampled, and there was
evidence that those employees had been evaluated on the fair and equitable treatment of
taxpayers.
We also researched the TIGTA Performance and Results Information System (PARIS)4 for any
related Section 1204 complaints made during the period October 1, 2005, through
August 31, 2006. There was only 1 potential Section 1204 complaint identified in the PARIS
during the 11-month period.
The results of our review indicate the IRS’ efforts to ensure managers are not using ROTERs or
production goals or quotas to evaluate employees are generally effective and continue to protect
the rights of taxpayers.




3
 See Appendix I for details.
4
 The PARIS provides the TIGTA with the managerial ability to account for and track all leads developed by the
TIGTA, all complaints received from external sources, and all investigations initiated as a result of internal and
external allegations.
                                                                                                              Page 4
                                 Fiscal Year 2007 Statutory Audit of
                            Compliance With Legal Guidelines Restricting
                           the Use of Records of Tax Enforcement Results



First-Line Managers Appropriately Completed Their Self-Certifications
The first-line managers we sampled complied with the provisions of RRA 98 Section 1204(c) by
completing the required self-certifications on the use of tax enforcement results for the second
and fourth quarters of 2006. Each manager had certified that ROTERs or production goals or
quotas were not used when evaluating employees. Figure 2 presents Part 1 of the RRA 98
Section 1204 Manager’s Quarterly Self-Certification document.
       Figure 2: RRA 98 Section 1204 Manager’s Quarterly Self-Certification




Source: The Internal Revenue Manual.

RRA 98 Section 1204(c) requires appropriate supervisors to certify quarterly in writing to the
IRS Commissioner whether ROTERs and production quotas or goals were used in a prohibited
manner. To do this, the IRS requires managers who evaluated Section 1204 employees to certify
in writing that they did not:
   •   Use ROTERs to evaluate employees or to impose or suggest production quotas or goals
       for employees in any performance evaluations, including appraisals, awards, or
       promotion justifications, written or reviewed by the manager.
   •   Verbally communicate to employees that ROTERs affected their evaluations.
   •   Verbally or in writing use ROTERs to impose or suggest production quotas or goals for
       employees or for work unit activities (e.g., through program guidance or business and
       program reviews).
The Internal Revenue Manual states the business organizations’/functions’ Section 1204
Program Managers and their respective Coordinators should monitor the quarterly certification
process throughout their organizations. The Section 1204 Program Managers’ and Coordinators’
duties include providing guidance to managers regarding Section 1204 issues.
Through the quarterly certification process, managers were reminded of their responsibilities
under RRA 98 Section 1204 not to evaluate their employees on the basis of ROTERs or

                                                                                          Page 5
                              Fiscal Year 2007 Statutory Audit of
                         Compliance With Legal Guidelines Restricting
                        the Use of Records of Tax Enforcement Results



production quotas or goals. This helped to ensure managers were aware of the IRS’ commitment
to administer the tax laws fairly and to protect the rights of taxpayers.




                                                                                     Page 6
                                   Fiscal Year 2007 Statutory Audit of
                              Compliance With Legal Guidelines Restricting
                             the Use of Records of Tax Enforcement Results



                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with established
procedures to implement the legal guidelines set forth in RRA 98 Section 1204.1 To accomplish
this objective, we:
I.      Determined whether a sample of the first-line managers in the SB/SE Division, the
        W&I Division, the LMSB Division, the TE/GE Division, the Office of the Chief, Appeals
        (Appeals function), and the Office of the National Taxpayer Advocate (Taxpayer
        Advocate office) complied with the provisions of RRA 98 Sections 1204(a) and 1204(b)
        when evaluating the performance of their Section 1204 employees.2
        A. Identified SB/SE Division, W&I Division, LMSB Division, TE/GE Division,
           Appeals function, and Taxpayer Advocate office locations in various cities and the
           number of Section 1204 first-line managers located in each business organization by
           city. We judgmentally selected 12 cities for this year’s audit: St. Paul, Minnesota;
           Milwaukee, Wisconsin; Chicago, Illinois; Richmond, Virginia; Jacksonville, Florida;
           Houston, Texas; Dallas, Texas; Oklahoma City, Oklahoma; Nashville, Tennessee;
           Seattle, Washington; Portland, Oregon; and El Monte, California. We considered the
           enforcement employee population disbursement, geographic coverage, and prior audit
           coverage when selecting the 12 audit sites.
        B. Upon arrival at each audit site, selected a judgmental sample of 5 first-line managers
           and 3 Section 1204 employees for each manager. We determined the number of
           first-line managers to sample based on their general representation in the 6 business
           units and their availability in the individual locations, for a total of 60 managers
           (20 SB/SE Division, 15 W&I Division, 10 LMSB Division, 5 TE/GE Division,
           5 Appeals function, and 5 Taxpayer Advocate office managers). This provided a total
           of 60 managers and 180 employees for review.
        C. Obtained and reviewed Fiscal Year 2006 performance evaluation documentation
           (including midyear and annual performance reviews and award documentation) for
           each employee to determine whether the use of any ROTER or production goals or


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement employee (Section 1204 employee) is an employee or any level manager of an employee who
exercises judgment in recommending or determining whether or how the IRS should pursue enforcement of the tax
laws or who provides direction/guidance for Section 1204 program activities.
                                                                                                       Page 7
                                      Fiscal Year 2007 Statutory Audit of
                                 Compliance With Legal Guidelines Restricting
                                the Use of Records of Tax Enforcement Results



             quotas was documented and whether employees were evaluated appropriately on the
             fair and equitable treatment of taxpayers.
         D. Reviewed the TIGTA PARIS3 for complaints regarding the violation of Section 1204.
II.      Determined whether selected first-line managers complied with RRA 98 Section 1204(c)
         by certifying by letter whether ROTERs were used in a manner prohibited by RRA 98
         Section 1204(a).
         A. Obtained Fiscal Year 2006 second and fourth quarter self-certifications for the
            selected first-line managers and reviewed the self-certifications for compliance with
            IRS procedures and the identification of any use of ROTERs or production quotas or
            goals.




3
 The PARIS is the TIGTA management information system that tracks all leads developed by the TIGTA, all
complaints received from external sources, and all investigations initiated as a result of internal and external
allegations.
                                                                                                              Page 8
                              Fiscal Year 2007 Statutory Audit of
                         Compliance With Legal Guidelines Restricting
                        the Use of Records of Tax Enforcement Results



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
James D. O’Hara, Audit Manager
Gwendolyn M. Green, Lead Auditor
Sharon Summers, Senior Auditor
Andrea McDuffie, Auditor




                                                                                    Page 9
                              Fiscal Year 2007 Statutory Audit of
                         Compliance With Legal Guidelines Restricting
                        the Use of Records of Tax Enforcement Results



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
National Taxpayer Advocate TA
Chief Financial Officer OS:CFO
Associate Chief Financial Officer for Corporate Planning and Internal Control OS:CFO:CPIC
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Office of Internal Control OS:CFO:CPIC:IC
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Audit Liaisons:
   Commissioner, Large and Mid-Size Business Division SE:LM:CL
   Commissioner, Tax Exempt and Government Entities Division SE:T:CL
   Chief, Appeals AP:TP:SS
   National Taxpayer Advocate TA
   Chief Financial Officer OS:CFO
   Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
   SE:S:CLD
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                    Page 10
                               Fiscal Year 2007 Statutory Audit of
                          Compliance With Legal Guidelines Restricting
                         the Use of Records of Tax Enforcement Results



                                                                              Appendix IV

                              Prior Audit Reports

The TIGTA has previously performed eight audits in this subject area. The audits were:
   Fiscal Year 2006 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2006-40-095, dated
   June 2006).
   Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2005-40-157, dated
   September 2005).
   Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2004-40-066, dated
   March 2004).
   Fiscal Year 2003 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2003-40-090, dated
   March 2003).
   Compliance With Regulations Restricting the Use of Records of Tax Enforcement
   Results Shows Improvement (Reference Number 2002-40-163, dated September 2002).
   Compliance With the Internal Revenue Service Restructuring and Reform Act of 1998
   Section 1204 Has Not Yet Been Achieved (Reference Number 2001-10-178, dated
   September 2001).
   Further Improvements Are Needed in Processes That Control and Report Misuse of
   Enforcement Statistics (Reference Number 2000-10-118, dated September 2000).
   The Internal Revenue Service Should Continue Its Efforts to Achieve Full Compliance with
   Restrictions on the Use of Enforcement Statistics (Reference Number 1999-10-073, dated
   September 1999).




                                                                                         Page 11
